Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  THE FIRST LEVEL OF THE
    MEDICARE APPEALS
    PROCESS, 2008–2012:
  VOLUME, OUTCOMES, AND
        TIMELINESS




                    Daniel R. Levinson
                     Inspector General

                      October 2013
                     OEI-01-12-00150
EXECUTIVE SUMMARY: THE FIRST LEVEL OF THE MEDICARE APPEALS
PROCESS, 2008–2012: VOLUME, OUTCOMES, AND TIMELINESS
OEI-01-12-00150

WHY WE DID THIS STUDY

The Medicare appeals process serves as an important protection for beneficiaries and
providers. This study represents the Office of Inspector General’s (OIG) first
examination of redetermination, i.e., the first level of the appeals process for Medicare
Parts A and B. This study contributes to OIG’s body of work concerning the Medicare
appeals system.

HOW WE DID THIS STUDY

This study focused on redeterminations processed for Medicare Parts A and B during
2008–2012. We obtained and analyzed data on redeterminations and claims processed
from the Centers for Medicare & Medicaid Services’ (CMS) Contractor Reporting of
Operational and Workload Data system for calendar years 2008–2012. We surveyed
18 contractors that process redeterminations for Medicare Parts A and B and interviewed
5 of them to learn more about how they process redeterminations.

WHAT WE FOUND

In 2012, contractors processed 2.9 million redeterminations, which involved 3.7 million
claims, an increase of 33 percent since 2008. Although 80 percent of all redeterminations
in 2012 involved Part B services, redeterminations involving Part A services have risen
more rapidly. By 2012, appeals involving recovery audit contractors accounted for
39 percent of all appealed Part A claims. Contractors decided in favor of Part A
appellants at a lower rate than that for Part B appellants. Also, contractors largely met
required timeframes for processing redeterminations and paying appeals decided in favor
of appellants, but they fell short of meeting timeframes for transferring case files for
second-level appeals. In addition, contractors use information from redeterminations in a
variety of ways to improve their operations and to educate providers. Finally, CMS
employs multiple methods to improve contractors’ processing of redeterminations,
including fostering communication among contractors and implementing the Medicare
Appeals System (MAS) for first-level appeals.

WHAT WE RECOMMEND

We recommend that CMS (1) use the MAS to monitor contractor performance,
(2) continue to foster information sharing among Medicare contractors, and (3) monitor
the quality of redetermination data in MAS. CMS concurred with all three
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           In 2012, contractors processed 2.9 million redeterminations, 

           which involved 3.7 million claims, an increase of 33 percent 

           since 2008 ........................................................................................8 

           An increase in claims from RAC-related redeterminations—which 

           account for 39 percent of all appealed Part A claims in 

           2012—explains the fivefold increase in appealed inpatient 

           hospital claims since 2008 .............................................................10 

           Contractors decided in favor of Part A appellants at a lower rate
           than that for Part B appellants........................................................11

           Contractors largely met required timeframes, with some

           exceptions ......................................................................................14 

           Contractors use information from redeterminations in a variety of
           ways to improve their operations ...................................................16 

           CMS employs multiple methods to improve contractors’

           processing of redeterminations ......................................................18 

Conclusion and Recommendations ............................................................21 

           Agency Comments and Office of Inspector General Response.....23 

Appendixes ................................................................................................24 

           A: Additional Data Tables.............................................................24 

           B: Agency Comments ...................................................................29 

Acknowledgments......................................................................................32 

                   OBJECTIVES
                   1.	 To describe the volumes and trends in redeterminations in Medicare
                       Parts A and B processed in 2008–2012.
                   2.	 To assess the outcomes and timeliness of Medicare contractors’
                       processing of redeterminations for Parts A and B.
                   3.	 To assess the Centers for Medicare & Medicaid Services’ (CMS)
                       monitoring of redetermination processing.

                   BACKGROUND
                   The Medicare Fee-for-Service Appeals Process
                   Medicare providers, beneficiaries, and other parties (such as State
                   Medicaid agencies) may appeal certain decisions related to Medicare
                   claims.1 The Medicare appeals process includes five levels (see Table 1).
                   This study focuses on the first level, redetermination.
                   Table 1: Levels of the Medicare Fee-For-Service Appeals Process
                       Level                                                                             Steps Taken
                       First level                Redetermination by a Medicare claims administration contractor

                       Second level                 Reconsideration by a Qualified Independent Contractor (QIC)
                                                          Hearing by an Administrative Law Judge in the Office of
                       Third level
                                                                                Medicare Hearings and Appeals
                                                               Review by the Medicare Appeals Council within the
                       Fourth level
                                                                                   Departmental Appeals Board
                       Fifth level                                              Judicial review in U.S. District Court
                       Source: CMS, Original Medicare (Fee-for-service) Appeals Process, accessed at 

                       http://www.cms.gov/orgmedffsappeals on February 14, 2013.



                   Overview of the Redetermination Process
                   Requesting redetermination. Appellants must file requests for
                   redetermination within 120 days of receiving notice of the claim
                   determination. Such notice includes, for providers, Medicare Remittance
                   Advice or, for beneficiaries, the Medicare Summary Notice. Providers
                   may also request a redetermination when notified that a postpayment
                   review has determined that an overpayment has been made. Such reviews
                   are conducted by Recovery Audit Contractors (RAC), Zone Program
                   Integrity Contractors (ZPIC), and Program Safeguard Contractors (PSC),



                   1
                     Social Security Act, § 1869; 42 CFR §§ 405.906(b) and 908. For the purposes of this
                   report, we use the term “provider” to refer both to providers and suppliers that provide
                   items and services under Medicare Parts A and B.

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                       1
                   as well as CMS’s Comprehensive Error Rate Testing (CERT) program.2
                   The timeframes and procedures for appealing overpayments from
                   postpayment review are the same as those that concern initial claim
                   determinations.
                   Appellants must file redetermination requests in writing and must also
                   indicate the reason why they disagree with the initial determinations. 3 The
                   redetermination request can cover one or multiple claims. Appellants may
                   also submit additional evidence, such as medical records or other
                   documents that should be considered when the redeterminations are made.
                   Decisionmaking process. The request for redetermination is filed with,
                   and the redetermination is made by, either the same Medicare claims
                   administration contractor (hereafter, contractor) that made the initial
                   determination or the contractor that is currently operating in that
                   jurisdiction. As of May 2013, these contractors include 16 Medicare
                   Administrative Contractors (MACs), as well as one fiscal intermediary
                   and one carrier.4
                   The redetermination is considered a second look at a claim and its
                   supporting documentation. It must be conducted by an employee of the
                   contractor who was not involved in making the initial determination.5
                   Depending on the nature of the redetermination, the review may be
                   conducted by a medical review staff member, such as a nurse. When
                   making the redetermination, contractor staff must follow the same
                   requirements as they would for initial claim determinations. Examples of
                   these requirements include statutory and regulatory requirements, as well
                   as national and local coverage determinations.6
                   Upon receiving the redetermination request, a contractor generally has
                   60 days to make the redetermination and provide written notice of its
                   decision to the appellant.7 However, if the appellant submits additional
                   evidence after filing the redetermination request, the contractor may
                   extend the decisionmaking date by 14 days.8


                   2
                     See CMS, Medicare Claim Review Programs, accessed at
                   https://www.cms.gov/MLNProducts/downloads/MCRP_Booklet.pdf on May 3, 2013. In
                   January 2012, CMS changed the name of RACs to Recovery Auditors.
                   3
                     42 CFR § 405.944(b); 42 CFR § 405.946(a).
                   4
                     CMS, Status of Medicare Administrative Contract (MAC) Awards (as of April 26,

                   2013), accessed at www.cms.gov on May 3, 2013. 

                   5
                     Social Security Act, § 1869(a)(3)(B)(ii); CMS, Medicare Claims Processing Manual, 

                   ch. 29, § 310. 

                   6
                     CMS, Medicare Claims Processing Manual, ch. 29, § 310. 

                   7
                     42 CFR § 405.950(a). 

                   8
                     42 CFR §§ 405.946(b) and 405.950(b). 


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                           2
                   Outcomes of redeterminations. The result of a redetermination may be
                   fully or partially favorable to the appellant (i.e., a full or partial Medicare
                   payment will be made) or unfavorable to the appellant (i.e., no Medicare
                   payment will be made).9 Favorable or partially favorable redeterminations
                   are generally paid within 30 days, but may take up to 60 days.10
                   Appellants who are dissatisfied with the redetermination decisions may
                   request reconsideration, which is the second level of the appeals process.
                   Appellants must file requests for reconsideration with a QIC within 180
                   days of the redetermination decisions. Upon receipt of a reconsideration
                   request, a QIC requests the redetermination case file from the contractor,
                   which must provide it to the QIC within 7 calendar days of the date of the
                   QIC’s request.11
                   CMS’s Tracking of Medicare Appeals
                   Currently, no tracking system contains details on individual
                   redeterminations that contractors process. The Medicare Appeals System
                   (MAS), which is intended to support appeals processing across the first
                   four levels of the appeals process, contains information only on appeals at
                   the second and third levels. CMS will begin to integrate redeterminations
                   into MAS beginning in September 2013.12 Currently, contractors maintain
                   case files and redetermination tracking systems for their own internal use.
                   Though CMS does not track individual redeterminations, its Contractor
                   Reporting of Operational and Workload Data (CROWD) system, which it
                   uses to monitor all aspects of contractors’ workloads, includes aggregated
                   information on redeterminations.13 On a monthly basis, contractors
                   electronically submit to CMS data from CROWD on redetermination
                   processing (hereinafter, CROWD data).14 Table 2 on page 4 shows some
                   of the variables included in CROWD data. Because redeterminations that
                   result from overpayments identified by RACs (hereinafter, RAC-related
                   redeterminations) are funded in a manner different from that for other



                   9
                     Under certain circumstances, contractors may dismiss redetermination requests and
                   appellants may withdraw their requests for redetermination. Dismissals and withdrawals
                   occur before a redetermination decision is made or communicated. See CMS, Medicare
                   Claims Processing Manual, ch. 29, §§ 310.1(B)(4) and 310.6.
                   10
                      CMS, Part A and Part B Medicare Administrative Contractor Statement of Work,
                   Attachment J-1, § C.5.10.2.

                   11
                      CMS, Medicare Claims Processing Manual, ch. 29, § 320.4. That manual provision 

                   was last revised in October 2005, whereas most contractors’ statements of work specify a 

                   case file transfer timeframe of 5 calendar days. 

                   12
                      Capital Asset Plan and Business Case Summary for the Medicare Appeals System, 

                   accessed from www.itdashboard.gov on March 29, 2012. 

                   13
                      CMS, Medicare Financial Management Manual, ch. 6, §§ 10.1 and 10.2. 

                   14
                      CMS, Medicare Financial Management Manual, ch. 6, § 460. 


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                              3
                   types of redeterminations, CROWD also includes a separate set of
                   variables for tracking RAC-related redeterminations.15
                 Table 2: Examples of Variables in CROWD Data
                   Variables
                   Number of redetermination requests received

                   Redetermination requests completed
                   Types of claims involved in redetermination requests (skilled nursing facility, home health,
                   inpatient hospital, outpatient, laboratory, ambulance, durable medical equipment,
                   physician, other)
                   Outcomes of redeterminations (fully favorable, partially favorable, unfavorable,
                   dismissed/withdrawn)
                   Completion timeframes for redeterminations

                   Number of case files requested by QICs and timeframes for forwarding case files to QICs
                                                                                     16
                   Number of favorably redetermined claims paid within 30 days
                   Source: CMS, Monthly Statistical Report on Intermediary and Carrier Part A and Part B Appeals
                   Activity Form (CMS-2592).


                   Identifying Suspected Fraud During the Redetermination
                   Process
                   CMS instructs contractors to ensure that sufficient documentation and
                   evidence exist to show that services were furnished.17 If a contractor has
                   “substantial basis” for determining that an appealed service was not
                   furnished, it may deny or reduce the payment.18 The contractor must also
                   document this decision in the case file, as well as send a copy of the
                   decision to the PSC or ZPIC.
                   Contractors’ Analysis of Redetermination Data
                   CMS requires contractors to analyze all available data, including
                   redetermination data, for developing provider outreach and education.19
                   Moreover, CMS considers a contractor’s data analysis program to be the
                   basis of an effective quality improvement program.20 For both of these
                   purposes, contractors’ data analysis programs should identify trends or




                   15
                      CMS, Medicare Financial Management Manual, Transmittal 144, Change Request 

                   6251, November 28, 2008. 

                   16
                      CMS refers to this as effectuation. See CMS, Medicare Claims Processing Manual, 

                   ch. 29, § 310.11. 

                   17
                      CMS, Medicare Claims Processing Manual, ch. 29, § 310.4. 

                   18
                      CMS, Medicare Claims Processing Manual, ch. 29, § 280.3. 

                   19
                      CMS, Medicare Contractor Beneficiary and Provider Communications Manual, ch. 6, 

                   § 20.3.

                   20
                      CMS, Medicare Claims Processing Manual, ch. 29, § 350. 


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                       4
                   aberrancies in redeterminations, as well as any inefficiencies or
                   problems.21
                   Concerns about Appeals Processing
                   Three Office of Inspector General (OIG) reports have raised concerns
                   about aspects of appeals processing at the second and third levels, as well
                   as problems with the quality of data in MAS. A report from 2012 on the
                   third level of the appeals process found issues with incomplete or
                   disorganized case files.22 A report from 2008 on the third level of the
                   appeals process identified problems with incomplete and inaccurate data
                   in MAS, including inconsistencies in appellant information and omitted
                   dates.23 In addition, a report from 2008 that examined the second level of
                   the appeals process found unmet timeframes for the processing of Part B
                   appeals; these unmet timeframes were attributed to (1) delays in receiving
                   case files from the contractors that processed redeterminations,
                   (2) unexpected volume of appeals, and (3) challenges with using MAS.24
                   The report also identified that inaccurate information was entered into
                   MAS for 54 percent of second-level appeals.
                   In 2003, the Government Accountability Office (GAO) reported that CMS
                   had limited understanding of the nature and types of Parts A and B
                   appeals.25 Specifically, GAO highlighted that CMS did not collect data on
                   the characteristics of appeals, such as the reason for the appeal, the type of
                   denial being appealed, and the type of appellant. As previously
                   mentioned, CMS still does not collect these data for redeterminations.

                   METHODOLOGY
                   Scope
                   This study focused on redeterminations processed for Medicare Parts A
                   and B during 2008–2012. We did not examine expedited redeterminations
                   for Part A services, which are handled by Quality Improvement
                   Organizations.26



                   21
                      Ibid.
                   22
                      OIG, Improvements Are Needed at the Administrative Law Judge Level of Medicare 

                   Appeals, OEI-02-10-00340, November 2012. 

                   23
                      OIG, Medicare Administrative Law Judge Hearings: Early Implementation, 

                   2005–2006, OEI-02-06-00110, July 2008.
                   24
                      OIG, Early Implementation Review of Qualified Independent Contractor Processing of

                   Medicare Appeals Considerations, OEI-06-06-00500, July 2008. 

                   25
                      GAO, Medicare Appeals: Disparity between Requirements and Responsible Agencies’ 

                   Capabilities, GAO-03-841, September 2003.
                   26
                      42 CFR § 405.1202.

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                           5
                   Data Sources and Analysis
                   CROWD Data. We obtained CROWD data on redeterminations from
                   CMS’s Contractor Management Information System (CMIS) for calendar
                   years 2008–2012. We analyzed these data to determine the number of
                   redeterminations processed, the types of claims involved in
                   redeterminations, and the outcomes. We also analyzed these data to
                   determine the extent to which contractors met the required timeframes for
                   processing redeterminations, forwarding case files to QICs, and paying
                   favorably redetermined claims. Finally, we analyzed the data to determine
                   the number of claims processed and denied in these timeframes.
                   In addition, we also analyzed data from CMIS on the number of claims for
                   Medicare Parts A and B that were processed and denied from 2008–2012.
                   Survey of Contractors. In January 2013, we surveyed the 18 contractors
                   then in operation that processed redeterminations for Parts A and B. The
                   questionnaire collected information on the following areas:
                   redetermination workload, contractor analysis of redetermination data,
                   redetermination requests from beneficiaries, suspected fraud and abuse,
                   working with other contractors, working with CMS, implementation of
                   MAS, and contractor challenges with processing redeterminations. Our
                   response rate was 100 percent.
                   Contractor Interviews. We interviewed five purposively selected
                   contractors to learn more about how they process redeterminations. We
                   conducted these interviews either by telephone or onsite. For each
                   contractor, we interviewed management and key staff responsible for
                   redeterminations, including those that process redeterminations and
                   develop provider outreach and education strategies. We used a structured
                   protocol that addressed the following topics: contractor processes for
                   redeterminations, trends in redeterminations volume, systems for
                   analyzing redeterminations data, processes for referral of redeterminations
                   because of suspicion of fraud or abuse, provider outreach and education,
                   interaction with CMS, collaboration with other contractors, and challenges
                   contractors faced concerning redetermination processing.
                   Interviews With CMS Staff. We interviewed relevant staff from CMS’s
                   Medicare Contractor Management Group and Medicare Enrollment and
                   Appeals Group to learn about their oversight of redeterminations. We
                   used a structured protocol. We collected information on the activities that
                   CMS conducts to monitor redetermination processing, the actions CMS
                   had taken to address recent increases in appeals volume, progress towards
                   implementing MAS, and the challenges that CMS faces in overseeing
                   redeterminations.


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                  6
                   Review of CMS Documents. We obtained and reviewed relevant policies,
                   manuals, and other documents issued by CMS regarding redeterminations.
                   This included the Medicare Claims Processing Manual, the Medicare
                   Financial Management Manual, the Medicare Contractor Beneficiary and
                   Provider Communications Manual, contractor statements of work, and
                   other relevant documentation regarding redetermination processing.
                   Limitations
                   CROWD data are self-reported by contractors, and we did not
                   independently verify them.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)               7
                    FINDINGS
                    In 2012, contractors processed 2.9 million
                    redeterminations, which involved 3.7 million claims,
                    an increase of 33 percent since 2008
                    Redeterminations may involve multiple claims and service types;
                    therefore, the number of redeterminations is smaller than the number of
                    claims. The number of claims involved in redeterminations in 2012 were
                    only 2.6 percent of denied claims and only 0.3 percent of the 1.2 billion
                    claims processed in that year (Table 3). In addition, the redeterminations
                    processed in a given year could involve claims from previous years and
                    are not a subset of the claims denied in that year.

 Table 3: Redeterminations and Medicare Claims Processed, 2008–2012
                                     Number of claims                                               Percentage of
             Redeterminations              involved in      Total Medicare     Total Medicare   denied claims with
 Year
                   processed         redeterminations    claims processed       claims denied    redeterminations
                                            processed                                                   processed
 2008                 2,206,331              2,820,726       1,189,655,945       159,437,418                 1.8%

 2009                 2,161,360              2,656,577       1,182,234,051       129,800,982                 2.0%

 2010                 2,190,693              2,652,725       1,175,428,235       118,080,657                 2.2%

 2011                 2,417,753              2,989,687       1,184,826,848       118,931,285                 2.5%

 2012                 2,937,983              3,664,599       1,230,162,749       139,275,486                 2.6%

 Source: OIG analysis of CROWD data, 2013.



                    On our survey, 14 of the 18 contractors estimated that 5 percent or less of
                    the redetermination requests they receive come from beneficiaries or their
                    representatives. Although CROWD data do not contain information on
                    whether requests for redetermination are filed by providers or
                    beneficiaries, our interviews and survey data suggest that requests for
                    redetermination are typically filed by providers rather than beneficiaries.
                    The percentage increase in Medicare redeterminations from 2008–2012
                    outpaced the percentage increase in the total number of Medicare claims
                    processed. From 2008 to 2012, the number of redetermination requests
                    processed increased by 33 percent, while the overall number of Medicare
                    claims processed increased by 3 percent.
                    Although 80 percent of all redeterminations in 2012 involved Part B
                    services, redeterminations involving Part A services have risen more
                    rapidly. In 2012, redeterminations involving Part A services totaled fewer
                    than 600,000, versus 2.3 million for Part B. However, from 2008 through
                    2012, Part A redetermination requests increased by 136 percent, versus
                    20 percent for Part B. (See Figure 1 for annual changes in
                    redeterminations processed.) In addition, although there were fewer

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                  8
                   Part A redeterminations, contractors we interviewed noted that Part A
                   redeterminations are generally much more time and resource intensive to
                   process than are those for Part B. Typically, Part A redeterminations
                   involve the review of an entire medical record, which must be conducted
                   by a nurse or other clinical staff member and may take much longer to
                   process than those that do not need medical review.

                                 Figure 1: Percentage Change in Redeterminations
                                           Processed From Previous Year

                                   80%
                                   70%
                                   60%
                                   50%
                                   40%
                     Percentage
                                   30%
                    Change From                                                                              Part A
                                   20%
                    Previous Year
                                   10%                                                                       Part B
                                    0%
                                  -10%
                                  -20%
                                  -30%
                                                 2009           2010           2011         2012
                                                                       Year

                   Source: OIG analysis of CROWD data, 2013.


                   Appeals of inpatient hospital claims, the most commonly appealed Part A
                   services, primarily drove the large increase in Part A redeterminations
                   between 2008 and 2012 (Table 4). The number of appealed Part A home
                   health claims also grew dramatically between 2008 and 2012, by
                   700 percent.

                    Table 4: Part A Medicare Claims Appealed From 2008 to 2012
                                                                                                   Percentage change in
                                                      Claims appealed         Claims appealed
                    Service type                                                                   claims appealed from
                                                               in 2008                 in 2012
                                                                                                            2008 to 2012
                    Inpatient                                    45,532               283,697                     523%

                    Outpatient                                  140,926               177,709                         26%

                    Home Health                                  14,248               114,453                     703%

                    Laboratory                                    1,701                 1,131                         -34%

                    Ambulance                                     5,723                 3,488                         -39%

                    Skilled Nursing Facility                      8,928                11,367                         27%

                    Other                                        45,945                61,267                         33%

                    Total                                       263,003               653,112                     148%

                    Source: OIG analysis of CROWD data, 2013.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                            9
                   From 2008 to 2012, the number of appealed Part B claims increased by
                   18 percent across service types (Table 5). Most Part B redeterminations
                   involved durable medical equipment (DME) and physician claims. The
                   largest increases from 2008 to 2012 were for laboratory (39 percent) and
                   DME (38 percent) claims.

                    Table 5: Part B Medicare Claims Appealed From 2008 to 2012
                                                                                               Percentage change in
                                                     Claims appealed        Claims appealed
                    Service type                                                               claims appealed from
                                                              in 2008                in 2012
                                                                                                        2008 to 2012
                    Physician                                   1,360,286         1,480,832                      9%

                    DME                                          703,513            968,873                    38%

                    Ambulance                                    226,553            233,941                      3%

                    Laboratory                                    80,015            111,291                    39%

                    Other                                        187,351            216,550                    16%

                    Total                                       2,557,718         3,011,487                    18%

                    Source: OIG analysis of CROWD data, 2013.




                   An increase in claims from RAC-related
                   redeterminations—which account for 39 percent of all
                   appealed Part A claims in 2012—explains the fivefold
                   increase in appealed inpatient hospital claims since
                   2008
                   During our site visits, contractors noted that the growth of the RAC
                   program, which CMS fully implemented in 2009, had resulted in increased
                   appeals of RAC decisions. From 2010 to 2012, appealed Part A RAC
                   claims increased from 13,605 to 254,898, while non-RAC Part A claims
                   increased from 279,546 to 398,214 (Figure 2). CMS’s CROWD data track
                   whether RAC-related redeterminations involve Part A or Part B claims,
                   but do not track the specific types of services involved. However,
                   contractors told us that RAC-related claims most frequently involved
                   short-term inpatient stays, which often require medical review.
                   In contrast to the increase in appealed Part A claims, the increases in
                   appealed Part B claims do not appear to be driven by an increase in RAC-
                   related redeterminations. RAC-related claims made up only 1 percent of
                   appealed Part B claims in 2010 and 3 percent of appealed Part B claims in
                   both 2011 and 2012.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                      10
                               Figure 2: Percentage of Appealed Part A Claims Related to
                                                    RAC Decisions
                    100%
                     90%
                     80%
                     70%
                     60%
                     50%
                                                                                            Non-RAC-Related Claims
                     40%
                                                                                            RAC-Related Claims
                     30%
                     20%
                     10%
                      0%
                               2008          2009         2010       2011        2012
                                                          Year

                   Source: OIG analysis of CROWD data, 2013.


                   Although CROWD does not contain data on the reasons for
                   redeterminations, contractors reported other reasons for the increase in
                   redeterminations workload (Table 6). In addition to RAC audits, these
                   reasons included efforts to prevent improper payments, such as PSC/ZPIC
                   reviews and prepayment edits. Changes in payment policies—such as local
                   coverage determinations—also increased the redeterminations workload,
                   particularly for Part B.

                    Table 6: Contractor-Reported Factors That Increased Redeterminations
                    Workload
                                                               Number of contractors            Number of contractors
                                                        reporting factor as increasing   reporting factor as increasing
                    Factor
                                                              Part A redeterminations          Part B redeterminations
                                                                                (n=13)                           (n=17)
                    Audits by RACs                                                 13                               15

                    Reviews by PSCs/ZPICs                                          11                               14

                    Prepayment Edits                                               11                               11

                    Local Coverage Decisions                                        7                               15

                    CMS Program Changes                                             8                               16

                    Source: OIG survey of contractors, 2013.




                   Contractors decided in favor of Part A appellants at a
                   lower rate than that for Part B appellants
                   Contractors’ decisions on redeterminations may be fully favorable to
                   appellants, partially favorable to appellants, or unfavorable to appellants.
                   Redetermination decisions also varied by the type of claims involved. For

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                      11
                   this study, decided redeterminations include all processed redeterminations
                   that were not dismissed by contractors or withdrawn by appellants.27 From
                   2008–2012, 7 percent of Part A redetermination requests and 12 percent of
                   Part B redetermination requests were dismissed or withdrawn.
                   From 2008 to 2012, the rate of favorable decisions on Part A
                   redeterminations decreased
                   As Table 7 shows, contractors decided fully or partially in favor of
                   appellants for less than a quarter of Part A redeterminations in 2012. The
                   rate of fully or partially favorable decisions for Part A redeterminations
                   decreased by over half from 2008 to 2012, from 50 percent to 24 percent.
                    Table 7: Outcomes of Part A Redeterminations, 2008–2012
                                                                            Percentage of
                                                                                                        Percentage of
                                    Redeterminations            redeterminations fully or
                    Year                                                                             redeterminations
                                            decided                 partially favorable to
                                                                                             unfavorable to appellants
                                                                                appellants
                    2008                        225,983                              50%                         50%
                    2009                        189,251                              50%                         50%
                    2010                        234,902                              49%                         51%
                    2011                        323,507                              40%                         60%
                    2012                        565,457                              24%                         76%
                    Source: OIG analysis of CROWD data, 2013.



                   For Part A RAC-related redeterminations, the rate of favorable decisions
                   decreased even more dramatically (Table 8). In 2009 and 2010, the first
                   2 years that contractors processed RAC-related redeterminations, most
                   contractor decisions were fully or partially favorable to appellants.
                   However, as the volume of RAC-related redeterminations grew
                   substantially in 2011 and 2012, the favorable rate declined substantially,
                   with just 11 percent of RAC-related redeterminations decided fully or
                   partially in favor of appellants in 2012. Contractors and CMS officials we
                   interviewed noted that since RACs began their operations, they have
                   become more skilled in interpreting Medicare payment policies.




                   27
                      See CMS, Medicare Claims Processing Manual, ch. 29, § 310.6, for the circumstances
                   under which contractors may dismiss redetermination requests.

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                        12
                   Table 8: RAC-Related and Non-RAC-Related Part A Redeterminations That
                   Were Favorable to Appellants, 2008–2012
                                                                               Percentage of                 Percentage of
                                       Overall percentage of
                                                                                 RAC-related              non-RAC-related
                                           redeterminations
                   Year                                                    redeterminations              redeterminations
                                     favorable to appellants
                                                                     favorable to appellants       favorable to appellants
                                           (fully or partially)
                                                                           (fully or partially)          (fully or partially)
                   2008                                   50%                              N/A                           50%
                   2009                                   50%                             83%                            50%
                   2010                                   49%                             80%                            47%
                   2011                                   40%                             21%                            44%
                   2012                                   24%                             11%                            33%
                   Source: OIG analysis of CROWD data, 2013.



                   The outcomes of Part A redeterminations also varied on the basis of types
                   of claims appealed. In 2012, only 4 percent of redeterminations for home
                   health claims and 10 percent of redeterminations for inpatient hospital
                   claims were fully or partially favorable to appellants. In contrast, 54
                   percent of redeterminations for claims for outpatient hospital services
                   were fully or partially favorable to appellants in 2012.
                   From 2008–2012, about half of Part B redeterminations were
                   favorable to appellants
                   As Table 9 shows, the percentage of Part B redeterminations decided fully
                   or partially in favor of appellants decreased slightly from 2008 to 2012,
                   with the largest drop resulting between 2011 and 2012. Physician claims,
                   which represent the largest volume of Part B appeals, maintained steady
                   favorable rates. However, the percentage of appealed DME claims
                   decided in favor of appellants (either fully or partially) dropped from
                   51 percent in 2008 to 38 percent in 2012.
                   Table 9: Outcomes of Part B Redeterminations, 2008–2012
                                                                              Percentage of
                                                                                                             Percentage of
                                        Redeterminations          redeterminations fully or
                   Year                                                                                   redeterminations
                                                decided               partially favorable to
                                                                                                  unfavorable to appellants
                                                                                  appellants
                   2008                         1,674,860                              65%                              35%
                   2009                         1,667,217                              60%                              40%
                   2010                         1,677,976                              57%                              43%
                   2011                         1,844,316                              58%                              42%
                   2012                         2,115,319                              51%                              49%
                   Source: OIG analysis of CROWD data, 2013.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                                13
                     Contractors largely met required timeframes, with
                     some exceptions
                     By law, contractors are required to process 100 percent of
                     redeterminations within required timeframes. The 100-percent standard
                     also applies to meeting the timeframes for transferring redetermination
                     case files for second-level appeals, as well as to paying claims that were
                     decided in the appellants’ favor.
                     Contractors largely met timeframes for processing
                     redeterminations
                     Contractors are required to complete redeterminations within 60 days of
                     receipt; if appellants submitted additional information after filing a
                     redetermination request, these redeterminations must be completed within
                     74 days.28 As Table 10 shows, the median completion rate (i.e., the
                     percentage of redeterminations completed within the required timeframe)
                     for Part A redeterminations ranged from 98 to 100 percent from 2008 to
                     2011, but dropped to 89 percent in 2012. Contractors’ annual median
                     completion rate for Part B redeterminations was 99 percent in 2008 and
                     100 percent from 2009–2012.
Table 10: Completion Rates for Processing Redeterminations, 2008–2012
                                            Overall percentage         Median            Lowest           Highest
Medicare                   Number of         completed within      contractor        contractor        contractor
Part        Year          contractors               timeframes completion rate   completion rate   completion rate
                 2008               20                   84%              98%              55%              100%

                 2009               22                   98%              99%              58%              100%

Part A           2010               16                   99%             100%              95%              100%

                 2011               17                   93%             100%              55%              100%

                 2012               18                   86%              89%              42%              100%

                 2008               26                   92%              99%              29%              100%

                 2009               25                   97%            100%               90%              100%

Part B           2010               21                   99%            100%               94%              100%

                 2011               23                   99%            100%               70%              100%

                 2012               24                   91%            100%               56%              100%
Source: OIG analysis of CROWD data, 2013.


                     The increased demand on contractors’ medical review staff could explain
                     contractors’ difficulty in meeting processing timelines for Part A
                     redeterminations. Contractors we interviewed cited the need to hire
                     additional medical reviewers to handle the influx of Part A appeals. On

                     28
                       42 CFR § 405.946(b). The contractor’s 60-day decisionmaking timeframe is
                     automatically extended for 14 calendar days for each submission of additional
                     information. See CMS, Medicare Claims Processing Manual, ch. 29, § 310.4.

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                    14
                   our survey, 14 of 18 contractors indicated that recruiting staff to conduct
                   medical reviews was a challenge. In our interviews, contractors told us
                   that hiring medical review staff can be a major challenge when those skills
                   are in demand. Moreover, the influx of RAC-related redeterminations has
                   led to contractors’ training their medical review staff on the services
                   involved in those redeterminations.
                   Contractors fell short of meeting timeframes for transferring
                   case files for second level appeals, likely because of
                   substantial increases in the number of such files
                   Appellants that are unsatisfied with the outcomes of redeterminations can
                   file appeals at the second level within 180 days of receiving their
                   outcomes. Given the growth in redeterminations that were unfavorable to
                   appellants, the volume of case files that contractors transferred to the
                   second level also grew markedly. In 2012, contractors transferred over
                   half a million case files to QICs for second-level appeals (see Figure 3).
                   This was a 144-percent increase in case files transferred from
                   2008 to 2012 and an 87-percent increase in files transferred from
                   2011 to 2012. The number of Part A case file transfers increased by
                   324 percent between 2008 and 2012. This increase corresponds largely to
                   the volume of unfavorable redeterminations for Part A.


                   Figure 3: Number of Case Files Transferred From Contractors to QICs by
                                         Medicare Part, 2008–2012

        300,000                                                                                281,415

        250,000                                                                           224,338
                                               196,576        191,331           199,556
        200,000
                           154,453
        150,000                                                                                          Part A
                                                                                                         Part B
        100,000                                                           71,515
                    52,890                               48,255
                                        41,288
         50,000

              0
                         2008                2009           2010               2011           2012


        Source: OIG analysis of CROWD data, 2013.




                   Likely as a result of the increase in Part A case files transferred, the
                   timeliness of contractors’ transfer of these case files to QICs within 5 days
                   dropped to 79 percent in 2012 (See Table A1 in Appendix A). In the
                   previous 3 years, contractors had transferred close to 90 percent of case


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                              15
                   files within 5 days. The median percentage of Part A case files transferred
                   to QICs within required timeframes across contractors lagged in 2012 as
                   well, dropping to 83 percent. The percentage of Part B case files
                   transferred within 5 days remained high, with 98 percent transferred
                   within this timeframe in 2012.
                   Contractors largely paid favorably appealed claims within
                   timeframes
                   In most instances, CMS requires contractors to issue payment within
                   30 days for claims that were decided fully or partially in the appellants’
                   favor. Across contractors, the median percentage of claims paid within
                   that timeframe in 2011 and 2012 was 99 percent for Part A and 100
                   percent for Part B (see Table A2 in Appendix A).
                   Fluctuating workloads affect contractors’ ability to meet
                   redetermination timelines
                   On our survey, 17 of 18 contractors cited fluctuating redetermination
                   workloads as a challenge in meeting mandated timeframes for processing.
                   Increases in workload pose challenges when the volume exceeds the
                   amount for which a contractor has budgeted. Because appellants have
                   120 days to file requests for redetermination, it is difficult to predict when
                   the changes in workload might occur. Managers at one contractor told us
                   that, along with hiring additional staff to keep up with the workload, they
                   had also borrowed staff from other departments, instituted mandatory
                   overtime, and hired temporary staff. Managers at other contractors told us
                   that they had to hire several more medical review staff members because
                   of the increase in Part A RAC-related redeterminations. Nonetheless,
                   contractors find it difficult to plan resource needs when they are unsure
                   how long their workload will keep increasing.


                   Contractors use information from redeterminations in
                   a variety of ways to improve their operations
                   CMS requires contractors to analyze redeterminations data. Contractors use
                   the results of these analyses to inform provider education and outreach, as
                   well as to improve their internal operations. In addition, contractors train
                   redetermination staff to identify potential instances of fraud while reviewing
                   redeterminations.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                    16
                   Contractors used information from redeterminations for
                   educating providers and improving their internal operations
                   CMS instructs contractors to use all data they have available, including
                   data related to appeals, for developing provider outreach and education.29
                   On our survey, contractors reported that they analyzed a variety of
                   redetermination-related data sources as a part of their data analysis
                   programs. The most common types of data that contractors reported
                   analyzing “all of the time” include the timeframes for processing
                   redeterminations (16 of 18 contractors), feedback from staff
                   (13 contractors), outcomes of redeterminations (11 contractors), and
                   reasons for claim denials that result in redeterminations (9 contractors).
                   Moreover, all 18 contractors reported that they had identified trends,
                   aberrancies, or patterns through the data they analyzed in the past year.
                   The information from contractors’ analysis of redetermination-related data
                   informs the provider outreach and education that they conduct relative to
                   appeals. On our survey, 16 of 18 contractors reported that their data
                   analysis informs their education and outreach “to some extent” or “to a
                   large extent.” Contractors used the results from their data analysis to
                   target specific providers for increased education and to develop outreach
                   and education related to specific billing issues and aspects of the
                   redetermination process. For example, 1 contractor uses data on the top
                   10 reasons that redeterminations occur as the basis for provider
                   teleconferences and listserv messages. Other contractors use data analysis
                   to target provider-specific education, such as letters or in-person meetings.
                   Provider-specific education may address correct billing for items or
                   services as well as aspects of the appeals process, such as correctly
                   submitting redetermination requests or the difference between
                   redeterminations and reopening of claims.30
                   In addition, contractors also used the results from their data analysis to
                   improve their internal redetermination processes. On our survey, 10 of 18
                   contractors reported that they used these results for process improvements
                   “to some extent” or “to a large extent.” Most contractors that used data for
                   improving their redetermination processes reported that they used the
                   information to improve training for staff and make changes to procedures.
                   For example, one contractor’s analysis revealed that the provider contact
                   center received a large volume of calls on redeterminations. As a result,



                   29
                      CMS, Medicare Contractor Beneficiary and Provider Communications Manual, ch. 6,
                   § 20.3.

                   30
                      Reopening is a process that is separate from appeals. See CMS, Medicare Claims 

                   Processing Manual, ch. 34, § 10. 


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                         17
                   the contractor instituted training on redeterminations for provider contact
                   center staff.
                   Although detecting suspected fraud through the
                   redetermination process presents difficulties, contractors train
                   their redetermination staff on fraud detection
                   On our survey, 15 of 18 contractors reported that they have limited ability
                   to detect suspected fraud primarily through the redetermination process.
                   Moreover, contractors that we interviewed cited difficulties in detecting
                   fraud solely through the redetermination process. As the managers at one
                   contractor told us, an appeal represents an isolated case, which limits the
                   ability to identify fraud during that process. Managers at another
                   contractor mentioned that they focus their efforts on fraud prevention
                   efforts, such as implementing edits. Managers at one contractor
                   mentioned that when any questionable redeterminations are identified,
                   staff refer them internally to their benefit protection unit, which will refer
                   them to the ZPIC if appropriate.
                   Despite the limited ability to detect fraud through the redetermination
                   process, all contractors provide training to staff concerning suspected
                   fraud. On our survey, 16 of 18 contractors reported conducting
                   fraud-related training annually, with the remaining 2 providing it quarterly.
                   All contractors reported training staff at all levels of the redetermination
                   process, including clerical staff, redetermination review staff, medical
                   review staff, management, and mailroom staff.

                   CMS employs multiple methods to improve
                   contractors’ processing of redeterminations
                   During our interviews, CMS staff noted that they oversee the
                   redetermination process through a variety of contract management
                   activities. CMS examines CROWD data and reviews contractors’ monthly
                   status reports to monitor performance on redetermination processing and
                   identify any problems with meeting timeframes. In biweekly conference
                   calls with each contractor, CMS discusses contractors’ workload and
                   progress towards meeting timeframes. Moreover, CMS reviews
                   redetermination processing as part of the Quality Assurance Surveillance
                   Plan for MACs.31




                   31
                     See OIG, Medicare Administrative Contractors’ Performance, OEI-03-11-00740,
                   forthcoming.

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                       18
                   CMS has taken steps to address the increase in
                   redeterminations
                   CMS expects contractors to manage the increasing workload by
                   identifying and reacting quickly to workload changes. CMS has been
                   working to help contractors manage the increased workload by providing
                   additional funding where necessary. On our survey, the most common
                   redeterminations-related issue that contractors reported discussing with
                   CMS concerned RAC-related redeterminations (11 of 18 contractors).
                   CMS coordinates with the RACs to predict increases in the
                   redetermination workload. Furthermore, CMS and the contractors meet
                   with RACs to discuss which program areas the RACs will be focusing on
                   and to ensure that the RACs are correctly interpreting Medicare payment
                   policies.
                   Nevertheless, CMS noted that the recent increases in the redetermination
                   workload are a significant challenge. CMS officials attributed the surge in
                   workload to the increasing audit and program integrity activity, most
                   notably audits by RACs, reviews by PSCs/ZPICs, and the CERT program.
                   During our interview, one CMS manager also commented that any change
                   in the program results in an increase in appeals.
                   With the increasing workload, ensuring that contractors meet the
                   100-percent timeliness standard for processing redeterminations is a
                   challenge for CMS. This standard is mandated by law and is resource
                   intensive for contractors to achieve. CMS provides additional funding to
                   contractors to help them meet this standard; however, as one CMS
                   manager commented, the amount of resources necessary to get from
                   98 to 100 percent is “extraordinary.”
                   CMS fosters communication among contractors concerning
                   processing redeterminations
                   Despite the competitive nature of contracting, CMS has fostered
                   interaction among contractors. On our survey, 14 of 17 contractors
                   reported that CMS had facilitated discussions on redeterminations among
                   the contractors and 12 of 17 contractors reported meeting monthly or more
                   frequently with other contractors to discuss redeterminations. In
                   particular, DME contractors highlighted strong collaboration among the
                   four DME contractors.
                   Moreover, 16 of 17 contractors indicated that they would welcome
                   increased interaction with other contractors regarding redeterminations.
                   Some of the topics in which contractors expressed interest include
                   consistency of processes and policies, language used in redetermination
                   decision letters, and sharing of best practices.


The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                  19
                   Implementation of MAS will improve CMS’s ability to oversee
                   the redetermination process
                   Currently, CMS collects aggregate data on redeterminations from
                   CROWD but does not collect information on individual redeterminations
                   and appealed claims. As a result, CMS has limited information on the
                   types of services that are appealed and the types of appellants that are
                   filing requests for redeterminations. Once MAS is implemented, CMS
                   will have access to indepth data about individual redeterminations directly
                   from MAS. This will enable CMS to conduct more detailed analysis of
                   the redetermination process and will ease contractor workload because
                   contractors will no longer have to report these data. On our survey, all
                   17 respondents indicated that they expect MAS to be useful for managing
                   their workloads.
                   MAS implementation will also eliminate the need for contractors to
                   transfer case files to the QICs. With MAS, QICs will be able to pull files
                   on redeterminations directly from the system, saving the contractors from
                   transferring them. When surveyed about the usefulness of MAS for
                   transferring case files to QICs, all 17 respondents indicated that they
                   expect MAS will be very useful.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                 20
                   CONCLUSION AND RECOMMENDATIONS
                   The percentage increase in Medicare redeterminations from 2008–2012
                   outpaced the percentage increase in the total number of Medicare claims
                   processed; this growth can likely be attributed to efforts to reduce
                   improper payments. Although CROWD data cannot provide many
                   specifics on the nature of redeterminations, we identified substantial
                   growth in Part A RAC-related redeterminations, which increasingly were
                   decided unfavorably to appellants. Despite efforts by CMS and its
                   contractors to manage the timeliness of redetermination processing, the
                   increasing volume of redeterminations has posed challenges to meeting
                   the required timeframes, especially in the past 2 years. Contractors have
                   used information from redetermination processing to target provider
                   education, and CMS has also made efforts to encourage information-
                   sharing across contractors.
                   In the fall of 2013, CMS will begin to integrate redeterminations into
                   MAS. Once fully implemented, it will create efficiencies in
                   redetermination processing. Most notably, the manual, labor-intensive
                   transfer of case files between the first and second levels of the appeals
                   process will become obsolete. MAS will also equip CMS with readily
                   accessible data on redeterminations.
                   We recommend that CMS:
                   Use MAS to monitor contractor performance
                   Once MAS is implemented, CMS will have access to indepth data about
                   individual redeterminations in real time. CMS should use these data to
                   closely monitor the timeliness of redetermination processing, particularly
                   during the implementation of MAS. CMS should also use MAS data to
                   conduct more detailed analyses of redeterminations trends.
                   Continue to foster information sharing among Medicare
                   contractors
                   CMS has increased interaction among its contractors, and contractors
                   expressed interest in even more interaction. CMS should continue to
                   facilitate information sharing on best practices for redetermination
                   processing. This might be particularly useful during MAS
                   implementation. CMS should also continue to encourage
                   information sharing with the contractors that conduct postpayment
                   reviews, such as RACs, ZPICs, and PSCs. This would help contractors
                   better predict and prepare for future workload fluctuations.
                   Monitor the quality of redeterminations data in MAS
                   Previous OIG reports that examined the second and third levels of the
                   Medicare appeals process identified concerns about inaccuracies and data

The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                    21
                   missing from MAS. As CMS begins to integrate redeterminations into
                   MAS, it should develop a strategy to monitor the quality, accuracy, and
                   completeness of the data entered into MAS. Where possible, CMS should
                   also ensure that data quality checks and validation are built into MAS.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)             22
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all three of our recommendations.
                   In response to our first recommendation, CMS stated that MAS will
                   enable enhanced monitoring and tracking of contractor performance. It
                   also noted that it will be able to use MAS to conduct more detailed
                   analyses and identify trends and patterns with redeterminations.
                   In response to our second recommendation, CMS stated that it had
                   facilitated meetings among contractors related to MAS implementation
                   and participation in hearings for the third level of the appeals process. It
                   also noted that contractors often share in sessions concerning MAS
                   implementation, and it intends to continue these sessions after MAS is
                   implemented so they can continue to share. In addition, CMS stated that
                   the recent increases in the appeals workload show why it is essential for
                   information sharing to occur among the contractors that conduct
                   postpayment reviews.
                   In response to our third recommendation, CMS stated that contractors’ use
                   of MAS data should ensure greater accuracy, timeliness, and efficiency in
                   the appeals process. In addition, it stated that additional automation that
                   will be implemented into MAS should reduce instances of erroneous and
                   missing data that were identified by previous OIG reports on the second
                   and third level of the appeals process. CMS also noted that it will explore
                   adding data metrics related to MAS to its Quality Assurance Surveillance
                   Plans and Award Fee Plans for MACs.
                   For the full text of CMS’s comments, see Appendix B.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                      23
                       APPENDIX A
                       Additional Data Tables

 Table A1: Timeliness of Case File Transfer to Qualified Independent Contractors, 2008–2012
                                              Percentage of case                           Contractor percentages
 Medicare                     Number of
                    Year                         files transferred                Median                  Lowest                  Highest
 Part                        contractors
                                                     within 5 days           transfer rate           transfer rate           transfer rate
                    2008                20                      64%                    85%                     20%                   100%

                    2009                22                      87%                  100%                      61%                   100%

 Part A             2010                16                      87%                  100%                      59%                   100%

                    2011                17                      89%                    99%                     50%                   100%

                    2012                18                      79%                    83%                     42%                   100%

                    2008                26                      81%                    89%                     14%                   100%

                    2009                25                      97%                    99%                     56%                   100%

 Part B             2010                21                      99%                  100%                      93%                   100%

                    2011                23                      99%                  100%                      92%                   100%

                    2012               20*                      98%                    99%                     75%                   100%
* At different points in 2012, CMS changed each of the four DME contractors’ file transfer timeframe from 5 days to 7 days. Because CROWD
lacks a discrete category for reporting file transfer within this timeframe, we excluded these contractors from the 2012 percentages.

Source: OIG analysis of CROWD data, 2013.




 The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                                        24
Table A2: Timeliness of Payment of Favorably Redetermined Claims, 2008-2012
                                                 Percentage of                 Contractor percentages
Medicare                   Number of        favorably appealed
                Year
Part                      contractors        claims paid within     Median paid       Lowest paid        Highest paid
                                                       30 days    within 30 days    within 30 days      within 30 days

              2008                  20                    97%              98%                69%               100%

              2009                  22                    93%              97%                44%               100%

Part A        2010                  16                    92%              99%                 9%               100%

              2011                  17                    98%              99%                65%               100%

              2012                  18                    92%              99%                62%               100%

              2008                  26                    92%              97%                 6%               100%

              2009                  25                    96%              98%                84%               100%

Part B        2010                  21                    98%             100%                88%               100%

              2011                  23                    97%             100%                77%               100%

              2012                  24                    93%             100%                46%               100%
Source: OIG analysis of CROWD data, 2013.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                  25
Table A3: Outcomes of Redeterminations for Skilled Nursing Facility Claims, 2008–2012
                                                    Percentage of                    Percentage of               Percentage of
                Redeterminations
Year                                        redeterminations fully       redeterminations partially           redeterminations
                        decided
                                           favorable to appellants          favorable to appellants   unfavorable to appellants
2008                           8,455                             19%                            8%                         74%
2009                           7,614                             17%                            5%                         78%
2010                           9,851                             16%                            4%                         82%
2011                         11,785                              24%                            6%                         70%
2012                         10,654                              16%                            3%                         77%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A4: Outcomes of Redeterminations for Home Health Claims, 2008–2012
                                                    Percentage of                    Percentage of               Percentage of
                Redeterminations
Year                                        redeterminations fully       redeterminations partially           redeterminations
                        decided
                                           favorable to appellants          favorable to appellants   unfavorable to appellants
2008                         13,385                             22%                            2%                         76%
2009                         17,116                             35%                            4%                         61%
2010                         46,037                               9%                           1%                         89%
2011                         58,713                               6%                           1%                         94%
2012                        112,844                               3%                           1%                         95%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A5: Outcomes of Redeterminations for Inpatient Hospital Claims, 2008–2012
                                                    Percentage of                    Percentage of               Percentage of
                Redeterminations
Year                                        redeterminations fully       redeterminations partially           redeterminations
                        decided
                                           favorable to appellants          favorable to appellants   unfavorable to appellants
2008                         41,042                             31%                            0%                         69%
2009                         10,929                             30%                            1%                         70%
2010                           9,477                            26%                            2%                         65%
2011                         63,918                             16%                            2%                         83%
2012                        276,232                             10%                            0%                         90%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A6: Outcomes of Redeterminations for Outpatient Claims, 2008–2012
                                                    Percentage of                    Percentage of               Percentage of
                Redeterminations
Year                                        redeterminations fully       redeterminations partially           redeterminations
                        decided
                                           favorable to appellants          favorable to appellants   unfavorable to appellants
2008                        124,185                             55%                            5%                         39%
2009                        126,908                             52%                            4%                         44%
2010                        159,088                             53%                            5%                         42%
2011                        172,806                             49%                            6%                         44%
2012                        161,707                             49%                            6%                         46%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.





The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                             26
Table A7: Outcomes of Redeterminations for Laboratory Claims, 2008–2012
                                                     Percentage of                   Percentage of               Percentage of
                Redeterminations
Year                                         redeterminations fully      redeterminations partially           redeterminations
                        decided
                                            favorable to appellants         favorable to appellants   unfavorable to appellants
2008                         67,520                             55%                            2%                         43%
2009                         74,804                             45%                            4%                         52%
2010                         83,355                             48%                            5%                         48%
2011                         87,933                             54%                            4%                         42%
2012                        100,261                             52%                            2%                         45%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A8: Outcomes of Redeterminations for Ambulance Claims, 2008–2012
                                                     Percentage of                   Percentage of               Percentage of
                Redeterminations
Year                                         redeterminations fully      redeterminations partially           redeterminations
                        decided
                                            favorable to appellants         favorable to appellants   unfavorable to appellants
2008                        217,258                             68%                            1%                         32%
2009                        155,871                             61%                            1%                         38%
2010                        173,966                             52%                            1%                         47%
2011                        201,138                             48%                            0%                         52%
2012                        225,684                             43%                            0%                         57%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A9: Outcomes of Redeterminations for Durable Medical Equipment Claims, 2008–2012
                                                     Percentage of                   Percentage of               Percentage of
                Redeterminations
Year                                         redeterminations fully      redeterminations partially           redeterminations
                        decided
                                            favorable to appellants         favorable to appellants   unfavorable to appellants
2008                        628,712                             46%                            5%                         32%
2009                        423,150                             48%                            7%                         45%
2010                        485,295                             44%                            5%                         50%
2011                        636,222                             40%                            6%                         54%
2012                        897,500                             33%                            5%                         62%
Source: OIG analysis of CROWD data, 2013. 

Note: Some percentages do not sum to 100 percent because of rounding.



Table A10: Outcomes of Redeterminations for Physician Claims, 2008–2012
                                                     Percentage of                   Percentage of               Percentage of
                Redeterminations
Year                                         redeterminations fully      redeterminations partially           redeterminations
                        decided
                                            favorable to appellants         favorable to appellants   unfavorable to appellants
2008                      1,112,028                             60%                            3%                         37%
2009                      1,280,691                             54%                            3%                         43%
2010                      1,150,788                             54%                            4%                         42%
2011                      1,257,177                             55%                            3%                         42%
2012                      1,298,987                             52%                            2%                         46%
Source: OIG analysis of CROWD data, 2013.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                             27
Table A11: Outcomes of Redeterminations for Other Claims, 2008–2012
                                                     Percentage of                Percentage of               Percentage of
                Redeterminations
Year                                         redeterminations fully   redeterminations partially           redeterminations
                        decided
                                            favorable to appellants      favorable to appellants   unfavorable to appellants
2008                       196,640                            53%                           2%                         45%
2009                       166,697                            45%                           2%                         53%
2010                       176,085                            43%                           2%                         55%
2011                       181,088                            45%                           2%                         53%
2012                       250,403                            33%                           1%                         66%
Source: OIG analysis of CROWD data, 2013.



Note: The data presented in these tables were self-reported by contractors to the Centers
for Medicare & Medicaid Services. We did not independently verify the accuracy of
these data.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)                                          28
                           APPENDIX B
                           Agency Comments



  ,..,.....- . ...
 ( ..!~_             DEPARI'MENT OF H EALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services

  ,-:::z'[­                                                                                    Administrator
                                                                                               Washington, DC 20201




                     DATE:            AUG 2 3 2013 

                     TO:           Daniel R. Levinson 

                                   Inspector General 

                                                            /S/
                     FROM:          Nl.ari.lyn Tavenner 

                                    Admil\is~r

                     SUBJECT:       Office oflnspector General (OIG) Draft Report: "The First Level of the
                                    Medicare Appeals Process, 2008-2012: Volume, Outcomes, and Timeliness"
                                    (OEI-01-12-00150)


                     Thank you for the opportunity to review and comment on the OIG draft report. The OIG's study
                     focused on redeterminations, i.e., the first level of the appeals process for Medicare Parts A and
                     B, processed during 2008-2012. The purpose of the report was to describe the volumes and
                     trends in redeterminations in Medicare Parts A and B processed in 2008-2012; assess the
                     outcomes and timeliness of Medicare contractors' processing of redeterminations for Parts A and
                     B, and assess the Centers for Medicare & Medicaid Services' (CMS) monitoring of
                     redetermination processing. We appreciate OIG's time and effort in reviewing our processes.
                     The CMS concurs with OIG's recommendations and our comments on each recommendation are
                     below.

                     OIG Recommendation

                     The OIG recommends CMS use the Medicare Appeals System (MAS) to monitor contractor
                     performance.

                     CMS Response

                     The CMS concurs with this recommendation. Currently, MAS supports the processing of
                     qualified independent contractor reconsiderations and Administrative Law Judge (ALJ) hearings,
                     i.e., the second and third level of the appeals process for Medicare Parts A and B. In the fall of
                     2013, four Medicare Administrative Contractors (MACs) will begin processing Part A
                     redeterminations in MAS. This is an important step in CMS' phased-in approach to
                     implementing MAS at all of the MACs. The MAS will provide CMS with real-time data and
                     standardized reports to allow enhanced monitoring and tracking of MAC performance.
                     Additionally, MAS will provide a broader reporting structure with a much greater level of
                     specificity than the current redeterminations reporting mechanisms that are part of the Contractor
                     Reporting of Operational and Workload Data (CROWD) system. CMS will then be able to




The First Level of the Medicare Appeals Process, 2008-2012 (OEI-01-12-00150)                                                             29
The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)   30
The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)   31
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Joyce Greenleaf, Regional
                   Inspector General for Evaluation and Inspections in the Boston regional
                   office, and Russell Hereford and Kenneth Price, Deputy Regional
                   Inspectors General.
                   Maria Maddaloni served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Boston regional office who
                   conducted the study include Jessica Fargnoli. Central office staff who
                   provided support include Heather Barton, Kevin Farber, Dave Graf,
                   Althea Hosein, Scott Manley, and Christine Moritz.




The First Level of the Medicare Appeals Process, 2008–2012 (OEI-01-12-00150)               32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
